                PEACE CORPS
      OFFICE OF INSPECTOR GENERAL
                                Vision

  To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the Agency in achieving the
 goals set forth in the Peace Corps Act that Peace Corps Volunteers
    help the people of the countries in which they serve in meeting
    their needs for trained manpower, and help to promote a better
   understanding of the American people on the part of the peoples
served, and a better understanding of other peoples on the part of the
                            American people.




           Semiannual Report to Congress
          October 1, 2009 to March 31, 2010
PAGE INTENTIONALLY LEFT BLANK
                                             PEACE CORPS OFFICE OF INSPECTOR GENERAL



                                                      Table of Contents
Highlights from this Report ......................................................................................................................1
       Message from the Inspector General .................................................................................................. 1


Management and Administration ............................................................................................................4
       Agency Context .................................................................................................................................. 4
       OIG Staffing........................................................................................................................................ 4
       OIG Organizational Chart ................................................................................................................... 5
Advice and Assistance Provided to the Agency and Others ..................................................................8
       PC/Morocco: Inquiry of Volunteer Death and Assessment of Medical Care ..................................... 8
       Improper Vehicle Disposal Practices .................................................................................................. 9
       PC/Paraguay: Audit Review of Peace Corps Partnership Program Project and Cooperative
       Agreement ......................................................................................................................................... 11
       PC/Gambia: Review of UNDP Small Grant and Post’s Grants Process .......................................... 11
       Email and Social Networking Scams ................................................................................................ 12


Audits ........................................................................................................................................................16
       Overview ........................................................................................................................................... 16
   Headquarter Audits ............................................................................................................................... 17
       Peace Corps Fiscal Year 2009 Financial Statement Audit ............................................................... 17
       Annual Review of Peace Corps Fiscal Year 2009 Information Security Program ........................... 18
       Office of Chief Information Officer: Budget Formulation and Management Audit ........................ 19
       Peace Corps’ Process for Soliciting, Awarding, and Administering Contracts ................................ 21
       Contractor Incurred Cost Audit ........................................................................................................ 22
   Post Audits ............................................................................................................................................ 23
       PC/Burkina Faso: Audit .................................................................................................................... 23
       PC/Cape Verde: Audit ...................................................................................................................... 23
       PC/Tanzania: Audit........................................................................................................................... 24
       PC/Mongolia: Audit .......................................................................................................................... 26
Evaluations ...............................................................................................................................................28
       Overview ........................................................................................................................................... 28
   Country Program Evaluations ............................................................................................................... 29
       PC/Turkmenistan: Country Program Evaluation .............................................................................. 29
       PC/Morocco: Country Program Evaluation ..................................................................................... 30


Investigations ............................................................................................................................................32
       Overview ........................................................................................................................................... 32
   Crimes against Volunteers .................................................................................................................... 33
       Investigation of a Homicide at a West African Post ......................................................................... 33
       Judicial Disposition of an Attempted Rape at a Caribbean Post ...................................................... 33
       Investigation of Sexual Assault Allegation at an African Post ......................................................... 33
   Criminal and Misconduct Related Investigations ................................................................................. 33
       Investigation of Disclosure of Confidential Information at a West African Post ............................. 33
       False Statements Associated with a Vehicle Fraud at a South American Post ................................. 34
       Improper Vehicles Sales at a Pacific Post......................................................................................... 34
       NGO Embezzlement at a South American Post ............................................................................... 34
       Marijuana Importation at a Caribbean Post ...................................................................................... 35
       Kickback Scheme at a West African Post......................................................................................... 35
       Sexual Harassment at a Central American Post ................................................................................ 35
       Allegations of Sexual Harassment and Improper Computer Access at an Inter-American Post ...... 35
       Investigation of Federal Employee’s Compensation Act Recipients ............................................... 36
   Suspension and Debarment Referrals ................................................................................................... 37


Tables ........................................................................................................................................................40
       1: List of Reports: Audits and Evaluations ....................................................................................... 40
       2: Reports Issued with Questioned Costs or Funds Put to Better Use .............................................. 41
       3: Status of Reports Issued by OIG with Questioned Costs ............................................................. 42
       4: Status of Reports Issued by OIG with Funds Put to Better Use ................................................... 43
       5: Reports with Recommendations on which Corrective Action has not been Completed .............. 44
       6: Summary of Investigative Activity ............................................................................................... 45
       7: Summary of Hotline and Other Complaints ................................................................................. 46
       8: References to Reporting Requirements of the Inspector General Act .......................................... 47
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL




                          Highlights from this Report

Message from the Inspector General


It is my pleasure to present the Peace Corps Office of Inspector General’s (OIG) Semiannual Report to
Congress for the period of October 1, 2009, through March 31, 2010. This report is required by the
Inspector General Act of 1978, as amended, and covers work performed by OIG during the period
indicated. OIG activities during this reporting period demonstrate our continued commitment to
promote and increase the effectiveness and efficiencies of Peace Corps programs and operations, as well
as maintain standards established by the Council of Inspectors General on Integrity and Efficiency
(PCIE), the Executive Council on Integrity and Efficiency (ECIE), and other federal agencies.

OIG activities during this reporting period demonstrate our continued commitment to promote and
increase the effectiveness and efficiency of Peace Corps programs and operations. Included are reviews
of agency business processes that may contain weaknesses and other issues that would impede effective
management of additional resources to support the increase in Volunteers serving overseas to the level
set forth by the President. During this period, all three OIG units collaborated on various assessments
and other reviews, making key recommendations vital to agency growth plans.

OIG identified the capacity of Peace Corps business operations to support growth and expansion as a
management and performance challenge the agency will face in 2010. In areas of operations identified
as being the most impacted by rapid growth of Volunteers, OIG produced final audit reports on
Information Technology and Acquisitions and Contracting; issued a draft audit report on Safety and
Security, and began field work on an evaluation of the Volunteer Recruitment and Selection process.

In addition to the work described above, the Audit Unit has continued its critical work in connection
with the agency Financial Statement Audit by assisting the agency in improving the overall financial
health of the Peace Corps in accordance with the requirements of the Federal Managers Financial
Integrity Act and the Federal Financial Management Improvement Act (FISMA). While the Financial
Statement Audit once again resulted in an unqualified opinion in 2009, it continued to identify findings
that have not been addressed from prior Financial Statement Audits, some dating back to 2003. In
addition, the FISMA audit continued to identify findings from prior audits that have not been addressed,
some dating back to 2007.

During this reporting period, OIG issued final reports on post audits conducted in Burkina Faso, Cape
Verde, Mongolia, Tanzania, and a contractor-incurred cost audit in the Dominican Republic. The Audit
Unit also provided valuable advice and assistance to the agency in the areas of small grant projects
funded by the Peace Corps Partnership Program and United Nations Development Programme (UNDP).


October 1, 2009 to March 31, 2010                                                              1
During this reporting period, the Evaluation Unit issued reports for program evaluations conducted in
Morocco and Turkmenistan. In addition, the Evaluation Unit participated in several cross-functional
activities, including audits of Safety and Security and of Acquisitions and Contracting. The Evaluation
Unit also participated with the Investigative Unit in an assessment of health care provided by Peace
Corps/Morocco, following the death of a Volunteer.

Prior to September 1, 2008, the Investigation Unit managed and coordinated the agency’s participation
in the investigative and prosecutorial processes of cases involving violent crimes committed against
Volunteers overseas. This function was transferred to the Peace Corps Office of Safety and Security.
However, OIG remains responsible for investigating allegations of criminal wrongdoing, including
violent crime, committed by Peace Corps staff members, contractors, and Volunteers.

During this reporting period, OIG Investigation Unit closed 13 legacy cases (investigations and inquires
initiated before September 1, 2008), which include preliminary inquiries and investigations involving
violent crimes against Volunteers. In addition, the unit continues to work with the regional security
officer and the FBI Legal Attaché to bring to justice the murderer of a Peace Corps Volunteer in 1998.

In addition, in November 2009, the Investigation Unit, in conjunction with the Evaluation Unit,
conducted an inquiry into the death of a Volunteer in Morocco and participated in an assessment of the
organization and provision of health services to Volunteers in Morocco. The Volunteer death inquiry
and the assessment of medical care were conducted concurrently; our findings were presented in two
separate reports. The Investigation Unit continued to conduct numerous investigations into allegations of
waste, fraud, and abuse by Peace Corps staff, Volunteers, and contractors and provided advice and
assistance to the agency in the areas of vehicle disposal and countering email and social networking
scams.

At the end of the reporting period, the Peace Corps continues to position itself for growth and OIG is
working to assist the agency in enhancing its efficiencies and ensuring its programs and operations are
free of waste, fraud, abuse, and mismanagement.




                                        Kathy A. Buller
                                        Inspector General




       2                                                        Semiannual Report to Congress
Management and Administration




     Volunteer Brian Newhouse hands a
     microphone to a student during an
   English Day Celebration in Cape Verde
                     Management and Administration

Agency Context

As of March 31, 2010, 7,503 Peace Corps Volunteers and trainees were serving in 77 countries at 70
posts. This total includes 327 Volunteers and trainees funded by the President’s Emergency Plan for
AIDS Relief (PEPFAR) to work on HIV/AIDS projects at 12 posts and 82 Peace Corps Response
Volunteers serving in short-term assignments in 25 countries (19 posts).

The Volunteers and their programs are supported by 893 American direct-hire staff: 201 overseas; 123
in the regional recruiting offices; and the remaining 569 at headquarters. Approximately 2,000 locally
hired personnel complete post staffing. The Peace Corps also has corporate contracts domestically and
overseas, principally for guard services and training, and hires expert consultants, largely for training
and financial management.


OIG Staffing

In March 2010, Jim O’Keefe joined OIG as assistant inspector general for evaluations. O’Keefe
previously was a lead inspector at the Department of Homeland Security Office of Inspector General,
where he led inspections and special reviews of disaster and terrorism preparedness and response,
transportation security, and other homeland security programs. He has also served at the Department of
State as a bureau liaison to OIG and GAO, where he supported embassy and consulate inspections,
embassy physical security, and new embassy construction programs. O’Keefe has 16 years of prior
experience with the Peace Corps. He served as a Volunteer in Chad, Cameroon, and Rwanda. On the
Peace Corps staff, he held positions as a recruitment communications specialist, Volunteer placement
officer, and as Rwanda country director. He also served for five years as a senior evaluator with the
Evaluation Unit he is now managing. O’Keefe earned a Bachelor of Arts degree from the University of
South Carolina.

Executive Assistant Lori Carruthers left OIG in February 2010 to work for the International Rescue
Committee in Bangkok, Thailand.

At the end of this reporting period, the position of senior auditor and the position of senior criminal
investigator are vacant. OIG is engaged in the hiring process and expects to fill the positions soon.




       4                                                          Semiannual Report to Congress
                         PEACE CORPS OFFICE OF INSPECTOR GENERAL



OIG Organizational Chart




                                                    Inspector General




                                                   Deputy IG and Legal
                                                        Counsel


                    Executive Assistant                                    Office Administrator




                    Assistant Inspector            Assistant Inspector     Assistant Inspector
                   General/Investigations           General/Audits         General/Evaluations




                             Sr. Investigator                Sr. Auditor             Sr. Evaluator



                             Sr. Investigator                Sr. Auditor             Sr. Evaluator



                                                             Sr. Auditor
                         Vacant Sr. Investigator                                     Sr. Evaluator


                            Criminal Research             Vacant Auditor
                                                                                     Sr. Evaluator
                                Specialist

                                                              Expert




October 1, 2009 to March 31, 2010                                                                    5
PAGE INTENTIONALLY LEFT BLANK
Advice and Assistance Provided to the
                  Agency and Others




            PC/Paraguay Office in Asunción
                Advice and Assistance Provided to the
                         Agency and Others

PC/Morocco: Inquiry of Volunteer Death and Assessment of Medical Care

Following the death of a Volunteer in Morocco in November 2009, the Peace Corps Director requested
that OIG: (1) conduct an inquiry into the death of the Volunteer and (2) assess the organization and
provision of health services to Volunteers in Morocco. In response to this request, we assembled a
multidisciplinary team consisting of OIG staff members from our investigation and evaluation units and
expert medical consultants. The Volunteer death inquiry and the assessment of medical care were
conducted concurrently; our findings were presented in two separate reports.

Numerous interviews were performed and information was gathered from agency headquarters,
PC/Morocco staff and Volunteers, the deceased Volunteer’s host country family, and from Moroccan
medical facilities and doctors. In-country fieldwork took place December 5-19, 2009. We assessed the
post medical unit’s accountability and reporting lines; quality assurance procedures; funding and staffing
levels; professional skill levels and qualifications; and conducted a detailed and thorough review of
medical records. The Volunteer death inquiry included a chronology of the Volunteer’s health care at
post, as well as references to the probable cause of death. The assessment evaluated the health services
provided to Volunteers, including headquarters’ oversight of post operations, the experience and
qualifications of medical personnel, the medical unit’s organizational structure, and the day-to-day
administration of Volunteers’ medical services.

At the time of our assessment, PC/Morocco had three full-time Peace Corps medical officers (PCMOs).
Two of the PCMOs were medical doctors and one was a registered nurse. Additionally, one
administrative medical assistant supported the medical unit operations. All of the post’s medical unit
staff members were host country personal services contractors. We determined that the way in which
PC/Morocco organizes its medical services and provides health care to Volunteers had an impact on the
deceased Volunteer’s medical care. The PC/Morocco medical unit staff failed to identify the condition
causing the Volunteer’s symptoms. Two main factors led to this breakdown. The first was a failure to
effectively communicate, including transferring the case from one PCMO to another and relaying
pertinent information to Moroccan medical facilities. The second was the questionable professional
judgment of the PCMOs involved in the Volunteer’s medical care. We also identified possible
contributing factors, including the PC/Morocco medical unit’s large workload, questionable organization
of case management and dissemination of duties, and the lack of an effective mechanism to ensure that a
PCMO is practicing within his or her scope of expertise.

We determined that there was minimal clinical oversight of the Morocco PCMOs by the Peace Corps
Office of Medical Services (OMS), which is responsible for developing and managing the Volunteer
health care program, and also that the way the OMS measured and monitored the quality of health care
services provided to Morocco Volunteers was insufficient. The standard assessments conducted by the
OMS did not and would not have identified the issues related to the deceased Volunteer’s medical care.

       8                                                        Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL



These OMS assessments do not identify communication failures, ineffective teamwork and
collaboration, or ensure that medical practitioners are practicing within their scope of practice.
Additionally, there is no direct observation of clinical skills or measurement of clinical outcomes in
typical reviews. While our assessment specifically looked at PC/Morocco’s Volunteer health care
services, the question of whether this was a one-time failure or an indication of a larger systemic
problem throughout Peace Corps operations still remains.

Volunteers in Morocco are broadly dispersed throughout mountainous and sometimes hard-to-access
areas. Although Volunteer service in remote locations has been typical throughout Peace Corps’ history,
it underscores the importance of the professional judgment of the PCMO to determine when a Volunteer
needs to be seen in person by a PCMO or can be cared for locally in host country medical facilities. It
also underscores the importance of site visits by the PCMO to: 1) assess the medical resources available
in proximity to a Volunteer’s site; 2) build relationships with providers; and 3) assess the environment in
which Volunteers live.

 OIG made recommendations in our PC/Morocco Assessment of Medical Care and Death Inquiry
reports directed to PC/Morocco’s medical unit, OMS, and to Peace Corps’ Office of Global Operations
that, if implemented, would improve the delivery of health care to Volunteers. The Peace Corps
Director concurred with all the recommendations and made a firm commitment to implement them not
only in PC/Morocco, but throughout Peace Corps’ posts as appropriate. OIG will follow up and report
on the agency’s progress.




Improper Vehicle Disposal Practices

OIG issued a Management Implication Report on improper vehicle disposal practices and vehicle sales.
The report highlighted trends uncovered through multiple OIG investigations and inquiries that found
improper vehicle disposal practices and sales that yielded less than their fair market value.

OIG initiated a limited review of Peace Corps vehicle disposition practices globally as a result of
apparent fraudulent and improper vehicle disposal sales by a former Peace Corps country director
assigned to a South American post. This ongoing investigation disclosed that the country director
inappropriately sold three used Peace Corps vehicles with a total appraised value of $63,000 to two non-
governmental organizations (NGOs) for a total value of $9,000. One vehicle was sold for $1,000 and
the other two vehicles were sold for $4,000 each.

The sales price for the three vehicle sold to the two NGOs contravened Peace Corps policy (Fleet
Management Guide section 2.5.2), which states that vehicles must be sold for a fair and reasonable in-
country price. The OIG investigation disclosed that one NGO subsequently resold one of the vehicles
for $20,000 (five times the purchase amount), within three months of buying the vehicle from the Peace
Corps.




October 1, 2009 to March 31, 2010                                                                 9
During our review, OIG determined that inappropriate vehicle disposition practices are not uncommon
at the Peace Corps. For example, OIG discovered irregularities in the sale of a vehicle at a Peace Corps
post in the Pacific. The subsequent OIG investigation revealed numerous irregularities associated with
the internal vehicle auction, including that the highest bid was not honored and that the auction
documentation was lost. Furthermore, the car was awarded to a Peace Corps post staff member who
purchased it for approximately $8,000 and, within a year, resold the same vehicle for approximately
$18,000, a difference of $10,000.

Although agency policies have traditionally adhered to arms-length vehicle transactions and a
prohibition against direct sales to employees, section 2.5.4 of the Fleet Management Guide was revised
in January 2010 to bar Peace Corps staff, including contractors, from acquiring vehicles through Peace
Corps auctions or other direct means. 1 The revised policy states:

        Peace Corps employees, trainees, Volunteers, and contractors or their employees are prohibited from
        purchasing, bidding on, receiving as a donation, or otherwise acquiring Peace Corps fleet vehicles
        through direct sale by Peace Corps, through an auction conducted by Peace Corps, or by any other
        process conducted by Peace Corps.

The OIG inquiry into Peace Corps vehicle disposition practices is ongoing. A preliminary review of
vehicle sales in a Central Asian post has raised concerns about internal auction protocols. According to
an undated memo, it appears that a post sold three vehicles through an auction conducted by the Peace
Corps. However, the highest bidder, who bid an average of $11,000 for each of the three vehicles,
allegedly informed the Peace Corps that he did not want to purchase the vehicles. The next highest
bidder paid approximately $5,600 for one vehicle and the other two vehicles were awarded to two post
staff members who paid $3,200 and $3,000, respectively.

In addition to the aforementioned examples, our investigations have found multiple irregularities
associated with posts that conducted their own vehicle auctions or sales. These irregularities included
Peace Corps staff members receiving the winning bids, multiple bids from the same source, the highest
bid not being honored, in addition to lost or missing vehicle auction records.

OIG elected to review the disposal of Peace Corps vehicles globally to determine if there were other
indications of fraud, waste, or abuse. We coordinated with the Post Logistics Support Office and the
Office of the Chief Financial Officer to obtain vehicle disposal data. Based upon our analysis, it is
apparent that closer oversight of vehicle sales by headquarters management and the regions is warranted,
including guidance instructing posts to dispose of vehicles through independent auctions or the U.S.
Embassy. When available, third party auctions can better ensure that the agency receives returns at or
close to fair market value. In addition, the agency should highlight and enhance global dissemination of
the 2010 revised policy prohibiting Peace Corps staff, including contractors, from buying vehicles from
Peace Corps auctions or other direct sales.



1
  The prior agency policy advised that the direct sale of government property, including vehicles, should be conducted as
arms-length transactions and that the sale to Peace Corps employees, trainees, Volunteers, or any U.S. government employee
is illegal and is expressly forbidden. Additionally, it noted that all sales must be on a competitive basis.


       10                                                                  Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL



PC/Paraguay: Audit Review of Peace Corps Partnership Program Project and
Cooperative Agreement

We issued a management implication report detailing noncompliance with Peace Corps Partnership
Program (PCPP) regulations. We identified an inappropriate use of cooperative agreements that
committed U.S. government funds, bypassed federal law and regulations, and placed the agency at risk
for a potential violation of the Anti-deficiency Act.

A former country director inappropriately and without authority, signed an agreement with the host
country government and a Paraguayan nongovernmental organization (NGO), committing the Peace
Corps to fund a five-year scholarship program. The execution of this unauthorized cooperative
agreement did not comply with the Peace Corps policy regarding Partnership Program funds and
requirements for administrative control of those funds. The country director’s actions resulted in a
potential violation of 31 U.S.C. § 1501, requiring the recording of obligations, and risked causing an
Anti-deficiency Act violation.

In addition, not following PCPP procedures may have been a contributing factor in the mismanagement
of Peace Corps funds by a representative of the Paraguayan NGO. This issue has been referred to an
Assistant United States Attorney for possible further action.

Country directors often enter into agreements with host country governments and nongovernmental
agencies. However, without sufficient legal expertise, country directors may inadvertently violate laws
or administrative regulations. Anti-deficiency Act violations carry administrative penalties and may
have criminal penalties, including fines of not more than $5,000, imprisonment for not more than two
years, or both. Therefore, it is imperative that country directors follow Peace Corps policies regarding
cooperative agreements and the Peace Corps Partnership Program.

We recommended that agency management inform country directors of the risks of entering into
cooperative agreements committing U.S. government funds without fully understanding the legal and
accounting implications. Furthermore, we recommended that Peace Corps increase oversight and
monitoring of posts’ cooperative agreements by requiring the involvement and concurrence of the Office
of General Counsel and other management staff in their development and execution.



PC/Gambia: Review of UNDP Small Grant and Post’s Grants Process

This inquiry was conducted by the Audit Unit in response to information received from the Office of
General Counsel and the Africa Region staff regarding the solicitation, acceptance, receipt, and
expenditure of United Nations Development Programme (UNDP) funds by PC/Gambia Volunteers.
Under the direction of PC/Gambia staff, Volunteers created an improper method to obtain UNDP grant
funds for small community projects. We determined that Volunteers:

   •   On behalf of the Peace Corps, engaged, in the solicitation of grant funds from the UNDP without
       appropriate written authority from the agency

October 1, 2009 to March 31, 2010                                                                11
   •   Established a corporate entity registered with the government of The Gambia for the purpose of
       directly receiving UNDP grant funds on behalf of local communities
   •   With the full cooperation of the country director, used Peace Corps’ tax-free status to obtain the
       same tax-free status for the corporate entity registered with the government of The Gambia
   •   Risked inadvertently obligating the Peace Corps by accepting grant funds without any formal
       agreement between the Peace Corps, UNDP, and the government of The Gambia
   •   Established multiple foreign bank accounts to receive and disburse UNDP funds
   •   Received and disbursed UNDP funds without oversight, reporting requirements, or other
       methods of accountability

Furthermore, we found that the country director and PC/Gambia staff facilitated many of the
unauthorized and improper transactions. For example, the country director signed a letter to a local bank
certifying that the Peace Corps’ tax exempt status applied to the unauthorized corporate entity formed by
the Volunteers. The Peace Corps staff assisted Volunteers in improper solicitation to UNDP for grant
funds and was likely aware that the Volunteers were engaged in these activities on behalf of PC/Gambia.

Since these activities did not comply with applicable laws and Peace Corps’ regulations, we assisted the
Peace Corps in terminating them. Our assistance included establishing a full accounting of all UNDP
funds received by verifying the nature and the status of projects involving UNDP funds and the amount
of funds received and disbursed and establishing the remaining fund balances. Our assistance also
included helping to dissolve the unauthorized corporate entity in The Gambia and participating in
meetings with staff members from UNDP and representatives of the government of The Gambia to
resolve any outstanding issues. Both the acting regional director and General Counsel were briefed on
our work in helping the post resolve this matter.



Email and Social Networking Scams

During this reporting period, OIG issued a fraud alert warning to the agency and the general public
about Internet scams involving persons in indigent circumstances. OIG advised former Volunteers and
staff members to be vigilant against Internet scams requesting money that involve email and social
network sites, such as Facebook.

The agency has received information concerning apparent West African individuals who have sent
hundreds of fraudulent emails that seemingly come from American or British government officials
claiming that the sender urgently needs money because he/she was robbed or otherwise compromised in
an overseas location. The following quote was taken from a questionable email that was supposedly
sent by a British minister of justice: “I misplaced my wallet on the way to the hotel where my money
and other valuable things were kept. I would like you to assist me with a soft loan urgently to settle my
hotel bills [sic] and get back home.” The email alleged that the British minister of justice was on a trip
to Africa to perform charity work. More recently, a Volunteer serving in West Africa informed the
agency of her concerns about her email being compromised. Her family and friends received a bogus
request seemingly sent from her email account to send money via Western Union to a location in Wales,
United Kingdom.


       12                                                        Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL



These bogus emails appear to originate from the sender’s actual webmail account. The scam has two
distinct steps: (1) a scammer hacks into an email account via a phishing attack or other means and (2)
once the account has been accessed, the hacker will send large volumes of bogus emails to individuals in
the hacked address book with false claims of indigence and/or dire circumstances that require immediate
financial assistance. Since the messages are being sent from the victim’s own email address, some
recipients believe the need is real and send money.

OIG advised agency staff and the general public to be wary of any email requesting money that appears
to be from friends or family, especially wire transfers. Furthermore, OIG cautions former Volunteers
and Peace Corps staff to look closely at the grammar and content of these requests. They often have
misspelled words and broken English, which could be an indication of the scam.




October 1, 2009 to March 31, 2010                                                              13
PAGE INTENTIONALLY LEFT BLANK
                   M


                                       Audits




Mongolian students at a school where
        a Volunteer works
                                              Audits

Overview

The Peace Corps’ OIG Audit Unit performs audits of the agency’s field activities at overseas posts and
provides domestic administrative support at headquarters and regional recruiting offices. The Audit Unit
focuses primarily on the agency’s financial and administrative operations and personnel, which support
the agency’s mission and its Volunteers serving around the world. Although certain audits may require
a team effort, most audit engagements are conducted by a single auditor under the direction and
guidance of the assistant inspector general for audits. OIG also utilizes contracts with independent
auditing firms and engages individual experts for some highly technical audits. Furthermore, we are
charged with the responsibility of assisting with Peace Corps OIG investigations, as appropriate,
requiring audit expertise and specific skill sets.

Our audit work typically examines agency operational effectiveness and financial management. Audit
objectives are designed to assess whether good management practices are being followed; assets are
adequately safeguarded; managers are properly accounting for assigned resources; and if operations are
being carried out in compliance with federal laws, regulations, and applicable Peace Corps policies and
procedures. The audits are performed in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States.

Additionally, auditors may assist with the review of allegations of fraud, waste, abuse, and
mismanagement related to Peace Corps programs and operations. Allegations may include the potential
for improperly billing the government for goods and services either not provided or provided at inflated
rates. Audit assignments involve extensive problem solving, planning, and coordination, often at
overseas locations and covering a large variety of work processes carried out among several interrelated
organizations.

The Accountability of Tax Dollars Act of 2002 mandates that the Peace Corps subject its financial
statements for audit. OIG oversees and serves as the contracting officer’s technical representative for
contracts with an independent public accounting (IPA) firm to perform the annual audit of the agency’s
financial statements. To fulfill our responsibilities, we monitor the IPA’s work to ensure that it is of
acceptable quality, in compliance with federal law and applicable industry standards, and is completed
within guidelines established by the Office of Management and Budget (OMB).

We are also responsible for meeting specific requirements set by the Federal Information Security
Management Act. These requirements include performing annual reviews of the Peace Corps’
information security program and reporting related selected data to OMB.




      16                                                        Semiannual Report to Congress
                               PEACE CORPS OFFICE OF INSPECTOR GENERAL


Headquarter Audits

Peace Corps Fiscal Year 2009 Financial Statement Audit

OIG contracted with Urbach Kahn & Werlin LLP (UKW), an independent certified public accounting
firm, to audit the Peace Corps’ financial statements. The contract required the audit be done in
accordance with U.S. generally accepted government auditing standards; OMB Bulletin 07-04, Audit
Requirements for Federal Financial Statements; and the Government Accountability Office/President’s
Council on Integrity and Efficiency Financial Audit Manual. UKW’s audit reports for fiscal year (FY)
2009 included: (1) an opinion on the financial statements, (2) a report on internal control, and (3) a
report on compliance with laws and regulations.

In the audit of the Peace Corps, UKW found that the fiscal year 2009 and 2008 financial statements
presented fairly, in all material respects, the financial position of the agency, and further, its net cost,
changes in net position, and budgetary resources conformed with U.S. generally accepted accounting
principles. In addition, the firm reported that there was no material weaknesses related to internal
control. However, UKW’s report on internal control did identify two significant deficiencies:

               Accounting business processes need enhancements. Enhancements needed are related to
                accountability over selected fixed assets and consistency in reporting of host country
                contributions.
               Information system security controls need improvement. The auditor cited security
                management, contingency planning, access controls, and change management as areas
                needing improvement.

For the FY 2009 audit, OMB Bulletin 07-04 defined a significant deficiency as a deficiency in internal
control, or a combination of deficiencies, that adversely affects the entity’s ability to initiate, authorize,
record, process, or report financial data reliably in accordance with U.S. generally accepted accounting
principles, such that there is more than a remote likelihood that a misstatement of the entity’s financial
statements, that is more than inconsequential, will not be prevented or detected. UKW found no
instances of reportable noncompliance with the laws and regulations it tested.

In connection with the contract, we reviewed UKW's report and related documentation and inquired of
its representatives. Our review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to express, and we did not
express, opinions on Peace Corps’ financial statements, internal control, or conclusions on compliance
with laws and regulations. UKW was responsible for the auditor's reports issued on November 12,
2009, and the conclusions expressed in the reports. However, our review disclosed no instances where
UKW did not comply, in all material respects, with U.S. generally accepted government auditing
standards.

As required by OMB Circular A-136, Financial Reporting Requirements, the auditor’s reports have been
published within the Peace Corps FY 2009 Performance and Accountability Report. In addition, a


October 1, 2009 to March 31, 2010                                                                     17
separate letter describing internal control weaknesses, which do not meet the definition of a significant
deficiency, was issued directly to Peace Corps’ management.


Annual Review of Peace Corps Fiscal Year 2009 Information Security Program

The Federal Information Security Management Act (FISMA) mandates that federal agencies establish
effective information security protections and a program to secure its information systems from
unauthorized access, use, disclosure, modification, and other harmful impacts. These requirements must
be met through adherence to specific guidelines established by the National Institute of Standards and
Technology. FISMA also requires OIGs to annually review their agency’s information security
programs. OMB is responsible for reporting to Congress on the overall progress of the federal
government in meeting FISMA requirements. This is accomplished through an online data collection
tool that is used by agencies to report to OMB annually. Federal agencies and their respective OIGs are
required to submit their responses regarding FISMA compliance to OMB. The data collected in
response to the OMB requirements are designed to measure an agency’s progress.

OIG contracted with UKW to perform the annual review of the Peace Corps’ information security
program. UKW assisted OIG in preparing OMB responses for FISMA and provided reports associated
with reviewing a representative sample of Peace Corps’ information systems. Overall, the review
concluded that Peace Corps has made progress over the last few years in addressing its information
security weaknesses and becoming fully compliant with FISMA. During FY 2009, Peace Corps issued
three Authorizations to Operate (ATO) for its information systems. The agency continues to maintain
an up-to-date comprehensive system inventory in accordance with Federal Information Processing
Standards. Furthermore, incident response procedures to ensure that security incidents are properly
reported and remediated have been implemented and the percentage of personnel completing security
awareness training has significantly improved. However, Peace Corps still faces some important
challenges in becoming fully FISMA compliant. For example, at the conclusion of the FY 2009 review,
five out of 12 agency information systems needed to be fully certified and accredited to meet FISMA
requirements and eight of the 12 systems had contingency plans that had not been tested in accordance
with federal policy.

Although some progress was made during FY 2009, several security issues from previous FISMA
annual reviews were brought to management’s attention because they had not been fully remediated.
The more significant issues include:

   •   Certification and accreditation of 100 percent of Peace Corps’ information systems
   •   Implementation of adequate controls over the Plan of Action and Milestone process
   •   Completion of risk assessments and system security plans
   •   Implementation of adequate controls over the vulnerability assessment process
   •   Completion and implementation of adequate security controls over the agency’s information
       system environment
   •   Implementation of sufficient controls over change management procedures

Achieving full FISMA compliance will require effective leadership in the Office of the Chief
Information Officer (OCIO). However, the agency’s chief information officer (CIO) position has

       18                                                        Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL

remained vacant for over one year and the chief information security officer position has remained
vacant for several months. The gaps in key OCIO leadership positions have caused problems in
addressing FISMA issues. For example, the process of coordinating recommendations resulting from
this year’s FISMA review was more time consuming than in previous years and was complicated by
some managers’ lack of understanding of their roles and responsibilities as they relate to FISMA
compliance. In some cases managers disagreed with each other concerning their respective
responsibilities to resolve FISMA issues, refusing to take ownership for making the necessary corrective
actions. Ultimately the matter was referred to top management to assist in resolving the conflicts and
reaching an agreement. There are significant challenges ahead in achieving full FISMA compliance so it
is critical that managers understand their roles and responsibilities and agree on what actions need to be
taken to effectively remediate the issues.



Office of Chief Information Officer: Budget Formulation and Management Audit
IG-10-05-A

We reviewed the Peace Corps’ information technology investment and the Office of the Chief
Information Officer (OCIO) budget processes to determine whether Peace Corps complied with federal
requirements in the Clinger-Cohen Act of 1996 and the Office of Management and Budget (OMB)
Circular A-130 and to ensure the most efficient and effective use of agency resources. The chief
information officer (CIO) is responsible for providing advice and other assistance to the Peace Corps
Director to ensure that information technology is acquired and that information resources are managed
in accordance with federal regulations. In fiscal year 2008, the CIO managed an office of 58 employees
and 27 contractors and a budget of approximately $8,470,500 in operations and maintenance funds and
approximately $9,157,200 in centrally managed funds.

Our review determined that Peace Corps did not establish an effective information technology
governance process as required by the Clinger-Cohen Act of 1996 and OMB Circular A-130.
Specifically, Peace Corps did not: develop an Information Resource Management strategy, maintain a
current information technology roadmap to guide future decisions, clearly define the criteria for
prioritizing and selecting information technology investments, or establish a standard method for
monitoring and evaluating all project costs and schedules. As a result, Peace Corps:

   •   Management lacked the necessary information to make informed information technology
       planning and budgetary decisions and did not fully understand the information technology
       investment process.

   •   Offices made short-term decisions that did not ensure the most efficient and effective use of
       information resources, including more than $99,000 in funds and labor costs that could have
       been avoided for two uncompleted information technology projects.

   •   Management did not adequately plan for high priority initiatives and failed to allocate sufficient
       resources to fulfill federal information technology requirements.




October 1, 2009 to March 31, 2010                                                                19
   •   Project managers frequently allowed information technology projects to exceed budget estimates
       and missed scheduled milestones.

In addition, OCIO did not ensure its budgetary resources were sufficient and expended efficiently.
Although controls were in place and operating effectively to ensure fund allocation and expenditures
were necessary, justified, and properly approved, OCIO inappropriately commingled its two fund
accounts and relied heavily on additional agency funds to support routine business activities. The OCIO
also did not adequately manage its contracts or oversee the agency’s information technology personnel.
Because of poor budget management, OCIO:

   •   Risked that essential and required functions would not have adequate funding.

   •   Did not maintain adequate oversight to ensure that its workforce completed tasks timely and
       efficiently.

   •   Paid $35,000 in unnecessary contract services and failed to properly track an additional $149,000
       in contract costs.

   •   Did not properly manage $97,000 in lapsed salary costs.

   •   Did not maintain oversight of all agency information technology resources as required by the
       Clinger-Cohen Act of 1996.

OCIO did not provide Peace Corps offices with adequate guidance concerning requests for additional
agency funds and failed to monitor the use of additional funds. As a result, OCIO did not have
sufficient administrative control of funds to ensure the most efficient use of agency resources and could
not make fully informed decisions when providing additional resources to offices.

After reviewing the draft audit for 16 weeks, management fully concurred with 18 of the 23
recommendations made in our report, partially concurred with one, and didn’t concur with four.
However, overall management comments were not responsive and did not include evidence
demonstrating that they had either addressed the identified weaknesses or had a plan in place to correct
them. As a result, we were unable to close any of the recommendations and at the end of the reporting
period all 23 recommendations remain open.

Funds to be Put to Better Use
OCIO Budget Formulation and Management Audit - $154,357

Questioned Costs
OCIO Budget Formulation and Management Audit - $35,000




       20                                                        Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


Peace Corps’ Process for Soliciting, Awarding, and Administering Contracts
IG-10-06-A

We reviewed the Peace Corps’ contracting processes to determine whether they complied with
applicable federal laws, regulations, and agency policies and ensured the most effective and efficient use
of agency resources.

In fiscal year (FY) 2009, approximately 23 percent ($79.7 million) of Peace Corps’ budget ($340
million) was spent for the purchase of goods and services through contracts. The Office of Acquisitions
and Contract Management (OACM) is responsible for the policy and operational management of Peace
Corps’ acquisitions domestically and overseas. The mission of OACM is to provide acquisition support
to Peace Corps stakeholders through both operations and policy. OACM also serves as the agency’s
business liaison with the public and private sectors for contracting matters. Responsibilities of OACM
include: awarding and administering contracts, Interagency Agreements, Memorandums of
Understanding, transferring resources or funds, cooperative agreements, personal services contracts, and
managing the Government wide Commercial Purchase Card Program. The office is led by the Peace
Corps’ chief acquisition officer (CAO). In FY 2009, the CAO managed a staff of 17, with an operating
budget of approximately $1.46 million.

The Federal Acquisition Regulation (FAR) is the primary regulation for use by federal agencies for
procuring goods and services. The Office of Management and Budget’s (OMB) Office of Federal
Procurement Policy (OFPP) frequently issues supplemental guidance, such as minimum training
requirements for acquisitions professionals in the federal government. Most recently, OMB issued
memorandums in support of the President’s initiative for federal agencies to reduce spending and
minimize high-risk contracts. OMB also recently issued guidance for increasing competition in federal
contracts, for using cost comparisons to determine the most cost-effective solution for meeting contract
requirements, and for meeting the growing needs of the civilian agency acquisition workforce. The
Peace Corps has issued nine Peace Corps Manual (PCM) sections related to acquisition and other
guidance that cover aspects of the contracting process.

The Peace Corps Act (Public Law 87-293), as amended, provides contracting authority to the Director of
Peace Corps and permits the delegation of that authority to his subordinates. The Peace Corps Director
has partially delegated his contracting authority to the agency’s chief acquisition officer (CAO). The
Peace Corps Director has also delegated purchase authority to each country director for individual
procurement actions of goods and services valued up to $100,000 at posts worldwide. The CAO is
responsible for the policy and operational management of Peace Corps’ acquisitions domestically and
overseas.

The audit report contains five findings that require management’s attention:

   •   OACM has achieved improvements in agency contracting practices, but progress has been
       significantly impacted by resource limitations. As a result, initiatives to put a proactive contract
       surveillance program in place, improve compliance with Peace Corps and federal guidance, and
       broaden customer support services have not been fully implemented.




October 1, 2009 to March 31, 2010                                                                  21
   •   A lack of trained contracting officer technical representatives has exposed the Peace Corps to
       risks, including higher or unnecessary costs relating to the acquisition of products or services.

   •   Required Peace Corps activities do not always allow sufficient time to perform adequate
       acquisition planning. As a result, unnecessary and costly contract extensions of existing
       contracts may occur, or contracts are awarded that may not be the most cost-effective alternative.

   •   Inappropriate use of cost-reimbursement contracts has caused noncompliance with applicable
       federal regulations and resulted in the Peace Corps assuming greater risks associated with the
       acquisition process.

   •   Delegation of contracting authority from the Peace Corps Director to country directors has
       inhibited the CAO’s ability to mandate required minimum training and establish effective
       internal control over posts’ contracting process for procurements up to $100,000.

Of the 17 recommendations made in our report, management fully concurred with 15 recommendations,
partially concurred with one recommendation, and didn’t concur with one recommendation. At the end
of the reporting period 16 recommendations remain open.

Questioned Costs and Funds Put to Better Use
We questioned costs amounting to $138,263 and determined that $323,794 could be put to better use.
Both the questioned costs and funds put to better use are annual expenditures and are recurring costs.



Contractor Incurred Cost Audit

OIG conducted a contractor incurred cost audit. The audit evaluated the contractor’s recorded direct and
indirect costs for fiscal years ending December 31, 2005, through December 31, 2008. The OIG also
evaluated contractor severance payments to employees under contract performance years ending
December 31, 2002, through December 31, 2004. The OIG audit evaluated: the contractor’s accounting
procedures and practices; internal controls; and compliance with contract provisions, applicable cost
accounting standards, and the Federal Acquisition Regulations. The audit found the contractor had
overbilled the Peace Corps $11,123 for severance payments and $13,851 for labor costs. OIG identified
contractor internal control weaknesses, including inadequate accounting policies and procedures. Such
weaknesses contributed to the contractor’s failure to: submit contract-required incurred cost
submissions; reconcile recorded costs incurred with amounts billed to the Peace Corps; and to
adequately segregate recorded costs from one contract performance period/contract line item with costs
recorded for the next year’s contract performance period/contract line item. The audit results were
provided to the contracting officer for resolution.

Questioned Costs - $24,974




       22                                                        Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


Post Audits

PC/Burkina Faso: Audit
IG-10-01-A

We issued our audit report of PC/Burkina Faso in October 2009. The Peace Corps began its program in
Burkina Faso (then called Upper Volta) in 1966, but was asked by the country to cease sending
Volunteers in June 1986. In 1995, Peace Corps resumed work in the country and sent 19 Volunteers to
work in primary health care in rural communities. Two years later, the Ministry of Secondary Education
requested Volunteers to work with middle schools, high schools, a teacher training college, and a
university to make up for large shortfalls in qualified teachers. At the time of the audit there were 100
Volunteers working throughout the country.

We found that, in general, PC/Burkina Faso’s financial and administrative operations were functioning
effectively and complied with agency policies and federal regulations. We also found that the post had
established the necessary separation of duties concerning financial responsibilities; developed an
effective control mechanism for fuel cards through coordination with a vendor; implemented successful
procedures to manage its transit house; and took a proactive stance in updating its documentation and
establishing the necessary control processes before the audit.

However, there were several areas in need of improvement. The post had not fully implemented the
medical supply procedures to ensure proper separation of duties; lacked documentation to support
charges incurred due to personal use of Peace Corps property; and did not ensure all personal service
contractors completed an intelligence background information certificate, attesting to any involvement
in intelligence activities. Management concurred with all 20 recommendations. At the end of the
reporting period, three recommendations remain open.

Funds to be Put to Better Use
PC/Burkina Audit - $ 4,605



PC/Cape Verde: Audit
IG-10-03-A

We issued our audit report of PC/Cape Verde in December 2009. The Peace Corps began its program in
Cape Verde in 1988. Since then, approximately 450 Volunteers have served in the country. At the time
of the audit, 52 Volunteers were engaged in the areas of education and small enterprise development.
We found that the post’s financial and administrative operations required improvement in a number of
areas and that it did not fully comply with agency policies and federal regulations.

We identified weaknesses in internal control and recommended improvements to strengthen imprest
fund and cash management. The cashier did not change the combination to the imprest fund safe at least
annually to safeguard the fund’s assets. Furthermore, the post did not have on file a memorandum of
agreement with the bank handling Volunteer allowances, establishing and documenting the bank’s
October 1, 2009 to March 31, 2010                                                               23
requirements and responsibilities. The billing officer did not prepare and record bills of collection for
host country contributions for Volunteer housing until checks were received by the post. Furthermore,
budgetary reports to headquarters did not include all in-kind host country contributions.

Control over post property was inadequate and related records were incomplete or inaccurate. We noted
discrepancies between the property inventory records and the actual property on hand. The property
control officer did not reconcile the records with changes, which might have identified the discrepancies.

We found that the management’s oversight of post vehicles could be improved. The post’s vehicle
usage logs were incomplete and not reviewed by all required individuals to ensure that the post’s
vehicles were being used appropriately. The post’s vehicle auction process also contained internal
control deficiencies. In addition, the post had not fully implemented the agency’s medical supplies
inventory policy and we found differences between the inventories on hand and medical supplies
records.

The post did not compile and evaluate Volunteer responses to the fiscal year 2009 living and settling-in
allowance surveys and did not perform related market basket surveys to ensure that allowances
adequately provide for each Volunteer’s health and well-being.

The post had not obtained security clearances and intelligent background certifications for several staff
members. Also, time and attendance records were inaccurate and incomplete and there was a
discrepancy in the payments that the post was required to make to Cape Verde’s social security agency
on behalf of its staff.

Management concurred with all 41 recommendations. At the end of the reporting period, 29
recommendations are closed and 12 recommendations remain open.



PC/Tanzania: Audit
IG-10-04-A

We issued our audit report of PC/Tanzania in January 2010. The Peace Corps began its program in
Tanzania in 1962. Since then, more than 2,100 Volunteers have served there. The program was closed
in 1969 and re-established 10 years later. In addition, post activities were suspended in 1991 and
resumed later that year. At the time of our audit, 134 Volunteers were working in the areas of education,
environment, and health.

The country director arrived at the post in October 2008 and the administrative officer arrived in
November 2008. The post functioned with temporary duty (TDY) country directors between July and
October of 2008 and with TDY administrative officers between July and November of 2008. Many of
the deficiencies noted occurred during the TDY periods.

We found that the post’s financial and administrative operations required improvement and that its
compliance with agency policies and federal regulations was lacking or inconsistent. We noted
deficiencies in three of the five internal control standards of the Government Accountability Office:


      24                                                         Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL

standards requiring a control environment, control activities, and effective monitoring. We also found
that file management was inadequate and that some records and documents were missing or incomplete.

Contrary to agency policy, the cashier did not change the combination to the safe at least annually.
Further, the post had not reconciled bank statements for its new zero balance accounts and had not
obtained memoranda of agreements with the banks it uses to ensure that it was obtaining all the services
agreed upon. In addition, though the post conducted, in 2008, three surveys to evaluate the Volunteer
living allowance, all three surveys contained deficiencies. Moreover, the post did not complete its
surveys of the settling-in allowance for new Volunteers. Such surveys are critical in helping ensure that
the allowance amounts provided to Volunteers are adequate to support their health and well-being.

In contravention to federal and agency policy, personal services contractors signed and executed
procurement contracts committing the post and obligating U.S. government funds. Furthermore, the
post was unable to provide documentation demonstrating that procurements were competitively
awarded.

We also found that personal phone calls by post staff members were not adequately or promptly
identified, billed, and/or collected, and that previous administrative officers did not diligently monitor
the status of billings. In addition, a single staff member maintained the property database and performed
physical inventory verification, violating the internal control requirement for segregation of duties. We
also found that post vehicle usage, maintenance, disposition records, and control procedures were
inadequate, incomplete, and/or not performed.

Travel authorizations lacked proper signatures and staff members did not submit their travel vouchers in
a timely manner. Furthermore, both Volunteer and staff per diems required review. In addition, the
post’s official time and attendance records were not reviewed periodically by post management and did
not always reflect the information shown on timesheets.

Finally, the post had not fully implemented the agency’s policy on medical supplies inventories. We
found discrepancies between the quantities and expiration dates when comparing inventory records with
the medical supplies on hand.

Management concurred with all 56 recommendations. At the end of the reporting period, all
recommendations were closed.




October 1, 2009 to March 31, 2010                                                                25
PC/Mongolia: Audit
IG-10-07-A

We issued our audit report of PC/Mongolia in February 2010. The Peace Corps began its program in
Mongolia in 1991. Since then, over 725 Volunteers have served there. At the time of our visit, 120
Volunteers were engaged in English education and community development, youth development,
community-based health, and community and economic development.

We found that the post’s financial and administrative operations were functioning effectively and
complied overall with agency policies and federal regulations. However, we identified several areas
requiring attention.

We discovered that the cashier had not changed the combination to the imprest fund at least annually.
Further, security clearance updates for 13 personal services contractors were not on file but were in the
process of being completed by the U.S. Embassy’s regional security officer. In addition, two forms
listing Volunteer property held for safekeeping were inaccurate. Also, the post did not document the
basis used for estimating host country contributions for Volunteer housing.

In addition, we found that post documents inappropriately contained the complete Social Security
numbers of U.S. direct-hire staff and Volunteers. Finally, the post’s medical supplies inventory records
showed discrepancies in expiration dates with the inventory on hand and the medical officers did not
always list the quantities dispensed on the medical supplies dispensed form so the records could be
appropriately updated.

Management concurred with all five recommendations. At the end of the reporting period, two
recommendations remain open.




      26                                                         Semiannual Report to Congress
                                      Evaluations




Traditional Kasbah near the town of
        Taroudant, Morocco
                                          Evaluations

Overview

The Evaluation Unit provides the agency with independent evaluations of management and operations
of the Peace Corps, including overseas posts and domestic offices and programs. It identifies best
management practices and recommends program improvements and means by which to comply with
Peace Corps policies and federal regulations. During this reporting period, we concentrated on cross-
functional assessments conducted with the audit and investigation units that focused on Volunteer health
care in PC/Morocco, acquisitions and contract management, and Volunteer safety and security, which
we discuss elsewhere in this report. We also continued to provide management with a comprehensive
assessment of how effectively overseas country programs are functioning. Evaluations are conducted
under the direction and guidance of the assistant inspector general for evaluations and in accordance
with the Quality Standards for Inspections published by the Council of the Inspectors General on
Integrity and Efficiency.

Our country program evaluations include extensive interviews, reviews of relevant documents, physical
observations, and analysis by evaluators. The evaluators interview Volunteers and headquarters and
post staff, as well as key host country and U.S. government officials. In effecting their interviews, the
evaluators select a stratified judgmental sample of at least 20 percent of currently serving Volunteers
based on their length of service, site location, project focus, gender, age, marital status, and ethnicity.
Evaluators conduct the bulk of the Volunteer interviews at their homes and worksites and inspect their
housing using post-defined criteria. The period of review for a country program evaluation is one full
Volunteer cycle (typically 27 months). For country program evaluations, we use the following
researchable questions to guide our work:

   •   To what extent has the post developed and implemented programs intended to increase the
       capacity of host country communities to meet their own technical needs?
   •   To what extent has the post implemented programs to promote cross-cultural understanding?
   •   To what extent does training provide Volunteers the necessary knowledge, skills, and attitudes to
       integrate into the community and perform their jobs?
   •   To what extent has the post provided adequate support and oversight to Volunteers?
   •   To what extent are post resources and agency support and oversight effectively aligned with the
       post’s mission and program and agency priorities?
   •   Is the post able to adequately administer the President’s Emergency Plan for AIDS Relief
       (PEPFAR) program, support Volunteers, and meet its PEPFAR objectives? (Only applicable to
       posts receiving PEPFAR funds.)

The findings and recommendations provided in our evaluation reports are reviewed by agency
stakeholders affected by the review to ensure: (1) that our recommendations are feasible and (2) that our
reports are useful to the agency in its effort to strengthen internal controls and correct deficiencies.



       28                                                         Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL


Country Program Evaluations

PC/Turkmenistan: Country Program Evaluation
IG-10-02-E

We issued our final country program evaluation of PC/Turkmenistan in November 2009. Over 650
Volunteers have served in Turkmenistan since the inaugural program in 1993. At the time of our
review, there were 74 Volunteers serving in two projects: (1) English education and teacher
enhancement and (2) community health education and extension.

PC/Turkmenistan is considered a challenging post for staff and Volunteers. Although government
ministries have expressed support for Peace Corps, government controls and restrictions impact the
effectiveness of PC/Turkmenistan’s programs and Volunteers struggle to meet the first goal of the Peace
Corps mission – to help the people of interested countries in meeting their need for trained men and
women. Staff and Volunteers reported that restrictions imposed by the host country government,
including its control over Volunteer site selection and limitations on the activities that Volunteers may
engage in within their host community, have made it difficult for the PC/Turkmenistan program to be
effective and promote sustainability. In September 2009, the Peace Corps encountered further
difficulties with the Turkmen government. At that time, the government of Turkmenistan informed the
Peace Corps that the next Volunteer input would not be welcomed and the agency cancelled the
September 2009 input.

In addition to the challenges PC/Turkmenistan has encountered with the host country government, the
OIG evaluation determined that other factors inhibit the efficiency and effectiveness of
PC/Turkmenistan:

   •   Volunteers have received inaccurate information about the reality of serving in Turkmenistan.
   •   Staff is burdened by the host country government’s administrative demands and by Peace Corps’
       staffing shortages.
   •   Staff and Volunteers reported that programmatic changes need to be made before expanding the
       number of Volunteers and until these changes are put into place, the post may not be able to meet
       the agency’s expectations for program growth.

Despite these challenges, the OIG evaluation discovered that staff and Volunteers believe Peace Corps
has the potential to make a positive contribution to the people of Turkmenistan. We recommended that
the post assess the viability of project plans; develop strategies to address obstacles, such as establishing
Memoranda of Understanding with host government ministries; and improve technical training and
trainee assessment. We also recommended that post and regional managers develop a growth strategy
for PC/Turkmenistan that takes into consideration the host country’s receptivity, post staffing, and
programming constraints.

Management concurred with all 17 recommendations. At the end of this reporting period, five
recommendations are closed and 12 remain open.



October 1, 2009 to March 31, 2010                                                                  29
PC/Morocco: Country Program Evaluation
IG-10-06-E

We issued our final country program evaluation of PC/Morocco in November 2009. Over 4,000
Volunteers have served in Morocco since the program began in 1963. At the time of our evaluation,
PC/Morocco was Peace Corps’ second largest country program, with 258 Volunteers serving in the
following four projects: environment; health; small business development; and youth development.

Morocco continues to cope with the aftermath of the events of September 11; the continuing instability
in Iraq, Iran, and the Middle East; and ongoing concerns over the potential for further domestic
terrorism. Volunteers are widely dispersed throughout mountainous and sometimes hard-to-access
areas and they face an assortment of challenges related to language, religion, politics, gender, and
harassment. The OIG evaluation determined that the PC/Morocco program staff is experienced,
resourceful, dedicated to the Peace Corps mission, and has the skills required to support the Volunteers.
Most of the program staff has 10 to 20 years of Peace Corps experience. However, overall, PC/Morocco
staffing levels are insufficient to meet the extensive and complex support needs of the program. We
determined that staffing levels are inadequate in three key support areas and we made recommendations
to assess and redistribute workload or to add additional staff:

   •   Programming staff are overworked and struggle to provide Volunteer support needs such as site
       visits, report feedback, and regular communication.
   •   PCMOs have an unmanageable workload and the quality of medical support to the Volunteers is
       impacted by the medical unit’s large volume of work.
   •   The safety and security coordinator is strained by a continuous flow of Volunteer
       communications.

The OIG evaluation also determined that improvements in the following areas would increase the
efficiency and effectiveness of PC/Morocco:

   •   The youth development and small business development projects should collaborate with their
       project partners to develop Project Advisory Councils.
   •   Volunteers and trainees, particularly those over the age of 50, need additional support with
       language learning before and during their service.
   •   Language and cultural facilitators need additional training and experience to effectively conduct
       training.
   •   Program staff requires additional managerial and technical support from the programming and
       training officer and the staff needs to be more involved in the development of the training
       program.

Management concurred with all 16 recommendations. At the end of this reporting period, three
recommendations remain open.




       30                                                       Semiannual Report to Congress
                          Investigations




Mountain road on Santo Antão
    Island, Cape Verde
                                      Investigations

Overview

The Office of Inspector General (OIG) is authorized to conduct investigations on waste, fraud, abuse,
and mismanagement in Peace Corps programs and operations both domestically and overseas. In the
performance of this mandate, OIG investigates both criminal and administrative misconduct allegations
involving Peace Corps staff, contractors, and Volunteers, including violations of Peace Corps and U.S.
government standards of conduct. OIG utilizes various techniques to investigate allegations of
wrongdoing and often works with other offices within the Peace Corps and with law enforcement
officials from other agencies, as appropriate. These include the Department of Homeland Security,
Immigration and Customs Enforcement, the Department of State, Bureau of Diplomatic Security, the
Federal Bureau of Investigation (FBI), the Department of Labor, and the Department of Justice.
Allegations are forwarded to OIG through various means, including OIG audits and evaluations and
hotline complaints, and by multiple Peace Corps stakeholders, such as Volunteers, trainees, staff,
contractors, and other federal entities, as well as the general public.

Prior to September 1, 2008, the Investigation Unit managed and coordinated the agency’s participation
in the investigative and prosecutorial processes of cases involving violent crimes committed against
Volunteers overseas. This function was transferred to the Peace Corps Office of Safety and Security.
However, OIG remains responsible for investigating allegations of criminal wrongdoing, including
violent crimes, committed by Peace Corps staff members, contractors, and Volunteers.

During this reporting period (October 1, 2009 to March 31, 2010), the OIG investigation unit closed 13
legacy cases, which include preliminary inquiries and investigations involving violent crimes against
Volunteers. Legacy cases include investigations and inquiries initiated before September 1, 2008. The
following table demonstrates the types and number of closed violent crime cases.

                   Closed Legacy Cases of Violent Crimes Against Volunteers
           Investigation Type                      Number of         Number of
                                                    Inquiries      Investigations
           Aggravated Assault                          4                 1
           Attempted Rape                              0                 1
           Burglary with Volunteer Present             2                 0
           Intimidation                                0                 0
           Major and Other Physical Assault            0                 0
           Major Sexual Assault                        2                 1
           PROTECT Act                                 0                 1
           Rape                                        0                 0
           Other Sexual Assault                        0                 1
                                        Totals:        8                 5



      32                                                       Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL


Crimes against Volunteers

Investigation of a Homicide at a West African Post

OIG continues to coordinate with other members of the law enforcement community to investigate the
murder of a Volunteer in West Africa that occurred in 1998. During this reporting period, U.S. law
enforcement officials continue initiatives to reintroduce this case in the host country’s court of law. The
Peace Corps’ attorney filed petitions with the local courts to enable the regional security officer (RSO)
and the FBI Legal Attaché to interview the main suspect in this investigation, a male host country
national who initially confessed to the crime, but later recanted. The RSO provides weekly updates on
this homicide case to the U.S. ambassador, who has raised the case with the newly elected President of
the country.

Judicial Disposition of an Attempted Rape at a Caribbean Post

As previously reported, a Volunteer serving in a Caribbean country was burglarized and brutally
assaulted while her assailant attempted to rape her. A host country male was apprehended and placed in
local custody. OIG coordinated with the regional security officer, host country police, and the local
prosecutor to prosecute the case. OIG assisted with photo identification, physical line-up, and transport
of evidence to the FBI laboratory for analyses. OIG also accompanied the Volunteer victim to a pre-trial
hearing. On September 22, 2009, the suspect pleaded guilty to some, but not all, of the charges and on
October 22, 2009 he was sentenced to 15 years imprisonment by the local courts.

Investigation of Sexual Assault Allegation at an African Post

A Volunteer serving in an African post reported that she had been sexually assaulted by a Peace Corps
personal service contract staff member. OIG investigated the incident at the post and obtained subject
and witness statements which supported some, but not all, of the victim’s allegations. The personal
service contractor was subsequently placed on administrative leave and escorted from Peace Corps
property. The country director and the region determined that it was in the best interest of the Peace
Corps to place him on administrative leave until his contract expired in December 2009. The Volunteer
took a break in service, but hopes to continue serving at another agency post.


Criminal and Misconduct Related Investigations

Investigation of Disclosure of Confidential Information at a West African Post

During the previous reporting period, OIG visited a country in West Africa to investigate the improper
release of confidential information by Peace Corps staff members. OIG continues to provide assistance
to law enforcement organizations involving this matter. In this reporting period, OIG responded to a
request for assistance from the FBI to coordinate the interview of a former Volunteer and provided the
FBI with information obtained through an Inspector General subpoena.


October 1, 2009 to March 31, 2010                                                                 33
False Statements Associated with a Vehicle Fraud at a South American Post

In a previous semiannual report to Congress, OIG reported an ongoing investigation involving a former
country director who used his position for personal gain. The investigation uncovered evidence of a
scheme intended to represent that a public auction of Peace Corps vehicles had occurred when, in fact,
the vehicles were sold directly to various nongovernmental organizations (NGOs). The fraudulent
scheme led the U.S. Embassy to unknowingly provide inaccurate information to the host country
government regarding the disposition of Peace Corps vehicles. The investigation has also revealed
evidence indicating apparent improper payments associated with the country director’s living quarter
allowances (LQA). As a result of the OIG’s ongoing investigative efforts, the contract of a Peace Corps
staff member who participated in this scheme was not renewed.

The case involving the country director is ongoing and the OIG also plans to pursue civil recovery of
approximately $100,000 from the former country director. This matter has been referred to an assistant
U.S. attorney for criminal prosecution.

Improper Vehicles Sales at a Pacific Post

A country director informed OIG about possible vehicle fraud. He told OIG that during his cursory
review of vehicle sales at the post he noticed a vehicle that appeared to have been sold for under market
value. OIG subsequently reviewed disposal records for the last four vehicles auctioned and sold at the
post. The investigation disclosed one suspect transaction: a vehicle that was auctioned and internally
awarded to a Peace Corps staff member. This staff member submitted two questionable bids, the highest
of which was missing from post records and had not been honored by the staff member. However, this
staff member also submitted the second highest bid so he was awarded the vehicle. Within nine months
of acquisition, the staff member sold the vehicle for a $10,000 profit. Prior to the OIG inquiry, no one
had questioned the staff member or the events surrounding the sale of this vehicle. Because of the
timing of this investigation and the lack of vehicle auction documentation, there was no conclusive
evidence that a crime had occurred. However, the administrative officer was not contractually rehired
and the financial assistant received a letter of reprimand.


NGO Embezzlement at a South American Post

An OIG auditor and investigator collaborated to investigate allegations of embezzlement of Peace Corps
funds by a host country nongovernmental organization (NGO) in a South American country. OIG
determined that Peace Corps scholarship funds for local girls were not deposited in a bank account set
up for the program. Specifically, the audit and investigation disclosed that the president of the NGO did
not deposit four checks, totaling $36,435, into the program’s bank account, but instead cashed the
checks. OIG also determined that the former country director had improperly, and without prior
authorization, contractually bound the Peace Corps with a host country ministry to provide an undefined
amount of funds for a period of five years. OIG has referred this case for prosecution to the U.S.
Attorney’s Office.




      34                                                        Semiannual Report to Congress
                              PEACE CORPS OFFICE OF INSPECTOR GENERAL


Marijuana Importation at a Caribbean Post

OIG received a report that a host country customs service officer in a Caribbean country determined that
a package addressed to a Volunteer contained marijuana. The Volunteer indicated that the package may
have originated with a male friend who lived in the United States. OIG referred the findings of our
inquiry to the U.S. Postal Inspection Service for subsequent investigation. The Volunteer was
administratively separated by the country director.


Kickback Scheme at a West African Post

OIG deployed a special agent to a post in West Africa to investigate an allegation that the post’s general
services officer, a personal services contract staff member, had accepted kickbacks for awarding
contracts. The OIG investigation confirmed that the staff member had accepted cash and gifts from
contractors working for the Peace Corps. As a result of these findings, the staff member resigned from
the Peace Corps.


Sexual Harassment at a Central American Post

OIG investigated an allegation of inappropriate sexual conduct against a safety and security coordinator
in a Central American country. The investigation confirmed the allegations of harassment and other
misconduct. Additionally, OIG discovered that the staff member had sexual relationships with several
currently serving Volunteers in violation of Peace Corps fraternization policy. The staff member
resigned from the Peace Corps.


Allegations of Sexual Harassment and Improper Computer Access at an Inter-
American Post

OIG received an anonymous letter that made allegations against a U.S. direct-hire employee. The letter
stated that the employee had been sexually harassing a male Peace Corps personal services contractor
staff member. The letter alleged that the U.S. direct-hire employee had improperly accessed the staffer’s
emails and his medical records.

The evidence indicated that the employee may have violated 18 U.S.C. §2701, unlawful access to stored
communications. OIG made a referral to the United States Attorney’s Office for Western District of
Texas, which declined prosecution in lieu of administrative remedies.

Under agency policy, an IT specialist and/or backup computer administrator does not have authority to
access another staff member’s computer files without prior authority from his/her supervisor or from the
Office of the Chief Information Officer. The investigation disclosed a general pattern of abuse of
authority and concluded that the U.S. direct-hire employee had failed to obtain authorization to access
the staffer’s files. The U.S. direct-hire employee received a letter of proposed termination from agency
management.



October 1, 2009 to March 31, 2010                                                                35
Investigation of Federal Employee’s Compensation Act Recipients

The OIG Investigation Unit monitors Federal Employees’ Compensation Act (FECA) claims. The
Peace Corps paid $12.2 million for 1,386 active claims for medical care and disability compensation for
former staff members and Volunteers who were injured or became ill on the job or during their Peace
Corps service. As of the end of this reporting period (March 31, 2010), Peace Corps spent approximately
$7.3 million on active FECA claims.

In an effort to maintain the integrity of FECA, the Peace Corps OIG continues to coordinate with the
Peace Corps Office of Medical Services (PC/OMS) and the Office of Inspector General of the U.S.
Department of Labor (DOL/OIG) to investigate fraud. As part of our investigative actions, we review
the case files of beneficiaries, conduct background reviews, physician verifications, and site visits to
ensure that FECA funds are properly paid. During this reporting period OIG investigations and
initiatives disclosed the following instances of overpayments and unreported income:

   1. While conducting a routine visit to the district office of the Office of Workers’ Compensation
   Program (OWCP), OIG and PC/OMS discovered a FECA recipient who reported earning incomes.
   An investigation was initiated on this returned Peace Corps Volunteer (RPCV). The OIG
   investigation disclosed that the RPCV was working in two different positions, earning approximately
   $100 an hour in one position and approximately $45 an hour in the second position. Inspector
   General subpoenas were served on the two businesses and records were received. Based on the
   records it was determined that the RPCV was earning more than the allowed amount under her wage
   earning capacity. PC/OMS drafted a report and submitted it to the DOL claims examiner and the
   RPCV wage earning capacity was recalculated and subsequently reduced from $1,632 to
   approximately $696 a month. The reduction of $939 resulted in annual savings of approximately
   $11,268. Based upon the RPCV’s age and DOL’s average life expectancy formula (through 78
   years of age), this will result in a savings to the Peace Corps of approximately $326,000. This
   investigation is still ongoing.

   2. OIG and PC/OMS found that an RPCV had surgery and re-entered the workforce. She returned
   several uncashed FECA checks to DOL, which totaled over $21,000. These checks were issued
   between May 2007 and April 2008. When interviewed by OIG, this RPCV stated that she had
   difficulty getting DOL to acknowledge her changed income earning status.

   3. While conducting a routine alive and wellness check on an elderly RPCV, OIG found that the
   FECA recipient had died four months earlier. OIG communicated the RPCV’s status to PC/OMS
   and DOL and the FECA recipient’s payments were stopped. Our investigation revealed that she had
   received approximately $5,000 in direct deposits since her death. These funds will be returned to
   DOL.

During this reporting period OIG visited the OWCP district office in Jacksonville, Florida, with
PC/OMS clinical personnel. Together, we conducted record checks on 30 FECA recipients at the
district office. Claimant files revealed some possible overpayments and other administrative issues.
Specifically, one FECA recipient’s wage earnings indicate that his FECA benefits should be reduced.
We also performed field visits and alive and wellness checks on five FECA recipients.


      36                                                         Semiannual Report to Congress
                             PEACE CORPS OFFICE OF INSPECTOR GENERAL


Suspension and Debarment Referrals
During this reporting period OIG submitted two referrals to the Office of General Counsel for
consideration of suspension and debarment of two (former) Peace Corps contractors under Part 9 of the
Federal Acquisition Regulations (FAR). These referrals resulted from OIG investigations that
uncovered a preponderance of evidence indicating that these two contractors violated the terms of their
contracts, specifically Clause X, Section C, which mandates that contractors adhere to the U. S. federal
government employees’ Standards of Conduct, as set forth in 5 C.F.R. § 2635.

One investigation revealed that a post’s cashier, a personal services contract staff member, embezzled
Peace Corps funds from the post. During the course of the investigation the cashier confessed to the
embezzlement. The other investigation disclosed that the post’s general services officer, who was a
personal services contractor, received illegal gratuities and gifts from individuals performing contract
services for the post. These acts of wrongdoing by the personal services contractors directly impacted
their status and eligibility to be recognized as responsible government contractors. Given the presence
of other federal agencies overseas and the Peace Corps’ five-year rule, which can hinder institutional
memory, we believe the agency should consider this action of suspension and debarment as necessary to
protect the government.




October 1, 2009 to March 31, 2010                                                               37
PAGE INTENTIONALLY LEFT BLANK
                                  Tables




Men playing traditional Turkmen
 instruments in Turkmenistan
                                                  Tables
1: List of Reports: Audits and Evaluations



     Headquarter Audits
       Peace Corps Fiscal Year 2009 Financial Statement Audit
       Peace Corps Fiscal Year 2009 Annual Review of Information Security Program
       Office of Chief Information Officer: Budget Formulation and Management Audit
       Peace Corps’ Process for Soliciting, Awarding, and Administering Contracts
       Contractor Incurred Cost Audit


     Post Audits
       PC/Burkina Faso: Audit
       PC/Cape Verde: Audit
       PC/Tanzania: Audit
       PC/Mongolia: Audit


     Country Program Evaluations
       PC/Turkmenistan: Country Program Evaluation
       PC/Morocco: Country Program Evaluation




     40                                                                Semiannual Report to Congress
                                     PEACE CORPS OFFICE OF INSPECTOR GENERAL


2: Reports Issued with Questioned Costs or Funds Put to Better Use



                                                                                                  Questioned    Funds Put to
                                                                                                    Costs        Better Use
Office of Chief Information Officer: Budget Formulation and Management Audit
  7 Purchase of E-vault Software                                                                       -            $ 46,368
  19 Disaster Recovery Testing                                                                       $ 35,000        -
  22 Lapsed Salary Costs                                                                               -           $ 107,989

Peace Corps’ Process for Soliciting, Awarding, and Administering Contracts
  D.1 Discontinue use of cost reimbursement contracts (PC/Paraguay)                                   -            $ 323,794
  D.1 Discontinue use of cost reimbursement contracts (PC/Dominican Republic)                       $138,263         -

PC/Burkina Faso: Audit
  E.2 Fuel taxes that were not exonerated by the host country                                            -              $ 2,559
  H.1 Cost of leasing the staff house at the training site for 9 out of 12 months of the year            -              $ 2,046

Contractor Incurred Cost Audit
  Overbilled severance payment                                                                       $ 11,123        -
  Overbilled direct labor                                                                            $ 13,851        -

                                                                                          Total      $               680,993




October 1, 2009 to March 31, 2010                                                                                  41
3: Status of Reports Issued by OIG with Questioned Costs



                                                                                Number of
                                                                                                    Value
                                                                                 Reports
A. Reports issued prior to this period
  For which no management decision has been made on any issue                               1   $         3,083
  For which some decisions had been made on some issues                                     0         -

B. Reports issued during this period                                                        2   $    198,237

Totals of Categories A and B                                                                3   $    201,320


C. For which final management decisions were made during this period                        0         -

D. For which no management decisions were made during this period                           2   $    198,237

E. For which management decisions were made on some issues during this period               0         -

Totals of Categories C, D, and E                                                            2   $    198,237




      42                                                            Semiannual Report to Congress
                                   PEACE CORPS OFFICE OF INSPECTOR GENERAL


4: Status of Reports Issued by OIG with Funds Put to Better Use



                                                                             Number of
                                                                                                 Value
                                                                              Reports
A. Reports issued prior to this period
  For which no management decision has been made on any issue                            0         -
  For which some decisions had been made on some issues                                  0         -

B. Reports issued during this period                                                     3   $     482,756

Totals of Categories A and B                                                             3   $     482,756


C. For which final management decisions were made during this period                     1   $         4,605

D. For which no management decisions were made during this period                        2   $     478,151

E. For which management decisions were made on some issues during this
period                                                                                   0         -

Totals of Categories C, D, and E                                                         3   $     482,756




October 1, 2009 to March 31, 2010                                                                 43
5: Reports with Recommendations on which Corrective Action has not been Completed



                                  Recommendations Open 60 Days or More
                                                                                       Date        Number of Open
                                     Report
                                                                                      Issued       Recommendations
PC/Cape Verde Island: Audit                                                           12/2/2009                 12
PC/HQ Office of Chief Information Officer: Budget Formulation and Management Audit    1/11/2010                 23
                                                                                         Total :                35

                                 Recommendations Open 120 Days or More
                                                                                       Date        Number of Open
                                     Report
                                                                                      Issued       Recommendations
PC/Burkina Faso: Audit                                                               10/27/2009                  3
PC/HQ FY 2009 Financial Statement Audit                                              11/15/2009                 15
PC/Turkmenistan: Program Evaluation                                                  11/16/2009                 12
PC/HQ FY 2009 Information Security Program Audit                                     11/18/2009                 24
                                                                                         Total:                 54

                                 Recommendations Open 180 Days or More
                                                                                       Date        Number of Open
                                     Report
                                                                                      Issued       Recommendations
PC/HQ Travel Policies and Procedures Audit                                            6/27/2006                  3
PC/Eastern Caribbean: Audit                                                          12/20/2007                  2
PC/HQ Medical Clearance System: Evaluation                                            3/31/2008                  9
PC/HQ Volunteer Safety and Security: Evaluation                                       8/28/2008                  6
PC/El Salvador: Audit                                                                 9/22/2008                  3
PC/Dominican Republic: Program Evaluation                                            12/17/2008                  1
PC/Guyana: Program Evaluation                                                         1/29/2009                  4
PC/Guinea: Audit                                                                      3/31/2009                  2
PC/Uganda: Audit                                                                      3/31/2009                  1
PC/HQ Purchase Card Program: Audit                                                    3/31/2009                  8
PC/Senegal: Audit                                                                     7/24/2009                  1
PC/Nicaragua: Audit                                                                   7/29/2009                  2
PC/Jordan: Program Evaluation                                                         9/10/2009                  9
                                                                                         Total:                 51




       44                                                             Semiannual Report to Congress
                           PEACE CORPS OFFICE OF INSPECTOR GENERAL


6: Summary of Investigative Activity



              Cases                                              Number    Value
              Cases Opened as of 03/31/2010                        57
              Cases Opened during 10/1/2009 - 3/31/2010            10
              Cases Closed that were previously Opened             23
              Cases Open and Closed during 10/1/09 - 3/31/2010     2
              Total Open Cases as of 03/31/10                      34
              Referrals for Department of Justice Prosecution      4
              Referrals for Agency Administrative Action           1
              Referrals to Other Agency                            2

              Domestic Court Actions
              Trial (s) Pending                                    1
              Convictions                                          0
              Acquittals                                           0
              Judgments                                            0
              Fines/Restitution                                    0

              Overseas Court Actions
              Ongoing Prosecutions                                 3
              Convictions                                          1
              Acquittals                                           0
              Judgments                                            0
              Fines/Restitution                                    0

              Monetary Results
              Annual Savings                                       1       $ 11,268
              Recoveries/Restitution                               3       $ 30,000
              Cost Avoidance                                       1      $ 326,000

              Administrative Actions
              Employees (Resignations and Terminations)            5
              Other Employee Actions                               4
              Other Persons/Businesses                             0
              Suspension/Debarment Referrals                       2




October 1, 2009 to March 31, 2010                                                     45
7: Summary of Hotline and Other Complaints



               Complaints Received                 24
               Complaints Closed                   24

               Awaiting OIG Action                 0
               Resulted in Investigations          4
               Resulted in Audits                  0
               Resulted in Evaluations             0
               Referred to Agency Management        6
               Referred to Other Agency             0
               No Action Needed                    14




    46                                         Semiannual Report to Congress
                                 PEACE CORPS OFFICE OF INSPECTOR GENERAL


8: References to Reporting Requirements of the Inspector General Act



 Act Reference      Reporting Requirements                                                                Page
 Section 4(a)(2)    Review of legislation and regulations                                                 n/a
 Section 5(a)(1)    Significant problems, abuses, and deficiencies                                        7-31
 Section 5(a)(2)    Significant recommendations for corrective actions                                    7-31
 Section 5(a)(3)    Prior significant recommendations on which corrective action has not been completed   46
 Section 5(a)(4)    Matters referred to prosecuting authorities                                           33-41; 47
 Section 5(a)(5)    Summary of instances where information was refused                                    n/a
 Section 5(a)(6)    List of audit reports, including evaluations, inspections, and reviews                42
 Section 5(a)(7)    Summary of significant reports                                                        15-31
 Section 5(a)(8)    Statistical table - questioned costs                                                  44
 Section 5(a)(9)    Statistical table - funds put to better use                                           45
 Section 5(a)(10)   Summary of previous audit reports without management decisions                        n/a
 Section 5(a)(11)   Significant revised management decisions                                              n/a
 Section 5(a)(12)   Significant management decisions with which the Inspector General disagrees           n/a
 Section 5(a)(13)   Information under Federal Financial Management Improvement Act of 1996                n/a




October 1, 2009 to March 31, 2010                                                                         47
   Help promote the integrity, efficiency, and effectiveness of the Peace Corps.

 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful activity
 involving Peace Corps programs or personnel should call or write the Office of Inspector
             General. Reports or complaints can also be made anonymously.



                                          Call:
                                Main Office: 202.692.2900
                          Hotline: 800.233.5874 or 202.692.2915

                                          Write:
                                        Peace Corps
                                  Attn: Inspector General
                                    1111 20th St., NW
                                  Washington, DC 20526

                                            Or

                                       Peace Corps
                                 Attn: Inspector General
                                    P.O. Box 57129
                               Washington, DC 20037-7129

                                      Email:
                                 OIG@peacecorps.gov

                                     Website:
                               www.peacecorps.gov/OIG


All information and complaints will be treated confidentially unless OIG determines, during
               the course of the investigation, that disclosure is unavoidable.
